WAIVER

Supreme Court, U.S.
FILED

JUN 0 9 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-1290

Michael Bennett

v.

Marvel Entertainment. LLC
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
MARVEL ENTERTAINMENT, LLC

I am a member of the Bar of the Supreme Court of the United States.
the Bar of this Court. Should a response be requested, the response

0 I am not presently a memb
will be filed by a Bar
Signature

‘/S— 0..20

Date.
(Type or print) Name

Jason Rosenberg
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Alston & Bird LLP

Address

1201 West Peachtree Street

City & State
Phone

Atlanta, GA

404-881-7461

Zip
Email

30309

jason.rosenberg@alston.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Michael Bennett

RECEIVED
JUN 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

